Certificate Of Compliance
No. 19-156
Diego Baldemar Islas
Petitioner
v.
The State of Texas
Respondent
As required by Supreme Court Rule 33.1(h), I certify that the Respondent’s
Brief in Opposition to the petition for a writ of certiorari contains 5,549 words,
excluding the parts of the brief that are exempted by Supreme Court Rule 33.1(d),
based upon the representation of the word processing program that was used to create
the document.

/S/ HEATHER A. HUDSON
HEATHER A. HUDSON
Assistant District Attorney
Harris County, Texas
Harris County District Attorney’s Office
500 Jefferson, Suite 500
Houston, Texas 77002
Tel. (713) 274-5826
Hudson_heather@dao.hctx.net
Counsel for Respondent

